al
APPENDIX A
In the Supreme Court of Georgia
Decided: August 5, 2019
S19A0665. DERRICO v. THE STATE.
BENHAM, Justice.
Appellant Mark Derrico was convicted of
aggressive driving, reckless conduct, and failure to
signal lane change or turn in connection with a road
rage incident. Derrico has raised several challenges on
appeal, including constitutional challenges. For the
reasons that follow, we affirm.
Viewed in the light most favorable to the jury’s
verdicts, the evidence presented at trial showed the
following. On August 29, 2014, Derrico was involved
in a road rage incident with Felix Ambrosetti while
driving northbound on Georgia State Route 400 in
Forsyth County. Timothy Inglis – an independent
witness – observed the events and called 911. Inglis
testified that he saw Ambrosetti merge onto Georgia
400 and then proceed to cross all the way to the left
lane in front of Derrico. Inglis then observed Derrico
attempt to overtake Ambrosetti by passing him in the
right lane. However, while heading back into the left
lane, Derrico struck Ambrosetti’s vehicle on the
passenger side. Next, Derrico slowed down, went
behind Ambrosetti’s vehicle, then entered the
emergency lane and struck Ambrosetti’s vehicle on
the driver side. After that, both vehicles pulled off the

a2
road. Inglis said that Ambrosetti maintained his lane
throughout the incident and further testified that he
believed Derrico was angry and overreacted to
Ambrosetti’s merging.
Deputy Day of the Forsyth County Sheriff’s
Office responded to the scene and spoke with both
Derrico and Ambrosetti on the day of the incident.
Deputy Day cited Derrico for aggressive driving,
reckless conduct, and improper lane change.
1. Derrico argues that the evidence presented
was insufficient to convict him of aggressive driving
under OCGA § 40-6-397,1 reckless conduct under
OCGA § 16-5-60,2 and failure to signal a lane change
or turn under OCGA 40-6-123 (a)3 because he testified
that he was innocent and that Ambrosetti was the
aggressor. However, when we review a challenge to
the sufficiency of the evidence, we view the evidence
in the light most favorable to the jury’s verdict and
defer to the jury’s assessment of the weight and
credibility of the evidence. See Jackson v. Virginia,
443 U. S. 307 (III) (B) (99 SCt 2781, 61 LE2d 560)
(1979). The evidence, as set forth above, was sufficient
to authorize a reasonable jury to find Derrico guilty
beyond a reasonable doubt of the offenses for which he
was charged.
1 OCGA § 40-6-397 (a) provides in relevant part that“[a]
person commits the offense of aggressive driving when he or she
operates any motor vehicle with the intent to . . . intimidate . . .
another person, including without limitation violating [Code
Sections listed] with such intent.”

a3
See id.4
2. Derrico also argues that OCGA §§ 40-6-397
and 16-5-60 are unconstitutionally vague as applied
to him.
It is well established that the void for
vagueness doctrine of the due process
clause requires that a challenged statute
or ordinance give a person of ordinary
intelligence fair warning that specific
conduct is forbidden or mandated and
provide sufficient specificity so as not to
encourage arbitrary and discriminatory
enforcement.
2 OCGA § 16-5-60 (b) provides:
A person who causes bodily harm to or endangers the
bodily safety of another person by consciously disregarding a
substantial and unjustifiable risk that his act or omission
will cause harm or endanger the safety of the other person and
the disregard constitutes a gross deviation from the standard of
care which a reasonable person would exercise in the situation is
guilty of a misdemeanor.
3 OCGA § 40-6-123 (a) provides in relevant part that
“[n]o person shall . . . change lanes or move right or left upon a
roadway unless and until such movement can be made with
reasonable safety.”

a4
(Punctuation and citation omitted.) Major v. State,
301 Ga. 147, 152 (800 SE2d 348) (2017). “Where, as
here, the challenged statute[s] do[] not involve First
Amendment freedoms, [they are] examined in light of
the facts of the case at hand.” (Citation omitted.)
Baker v. State, 280 Ga. 822, 823 (633 SE2d 541)
(2006). “Our construction of [these statutes] is
consistent with this Court’s duty to construe []
statute[s] in a manner which upholds [them] as
constitutional, if that is possible.” (Punctuation and
citation omitted.) State v. Cohen, 302 Ga. 616, 623
(807 SE2d 861) (2017).

4 Derrico also contends that the trial court should have
granted his motions for directed verdict and new trial because
the State failed to prove guilt beyond a reasonable doubt.
However, as stated above, the evidence presented was sufficient
to find Derrico guilty beyond a reasonable doubt and the trial
court did not err by denying Derrico’s motions. See Moore v.
State, Ga. n. 4 Case No. S19A0985 (decided August 5, 2019);
Thompson v. State, 302 Ga. 533 (II) (807 SE2d 899) (2017); Slaton
v. State, 296 Ga. 122 (2) (765 SE2d 332) (2014); Jackson, 443 U.
S. 307 (III) (B).

a5
(a) Derrico contends that OCGA § 40-6-397 is
unconstitutionally vague because the statute contains
an open- ended list of violations and the aggressive
driving count in his indictment does not include a
reference to any of the statutes listed therein.5 Derrico
also claims that he was arbitrarily selected for
prosecution instead of Ambrosetti.
However, we cannot say OCGA § 40-6-397 does
not give a person of ordinary intelligence fair warning
that Derrico’s conduct — particularly, moving into the
emergency lane to then strike Ambrosetti’s car a
second time — is prohibited as an attempt to
intimidate someone, which violates the plain
language of the statute. See OCGA § 40-6-397 (a);
Major, 301 Ga. at 152. Derrico’s claim of selective
prosecution also fails as he has not even attempted “to
show that his prosecution represent[ed] an intentional
and
purposeful
discrimination
which
[was]
deliberately based upon an unjustifiable standard,
such as race, religion, or other arbitrary
classification.” Wallace v. State, 299 Ga. 672, 674 (791
SE2d 836) (2016).

5 Count 1 provides in relevant part “[Derrico] did
unlawfully operate [a] motor vehicle . . . with the intent to
intimidate Felix Ambrosetti . . . in that [Derrico] did move into
Felix Ambrosetti’s lane, striking the vehicle Felix Ambrosetti
was driving, in violation of OCGA § 40-6-397.”

a6
(b) Derrico argues that OCGA § 16-5-60 (b) is
unconstitutionally vague as applied to him because he
was a victim of Ambrosetti’s road rage and dealt with
the situation as best he could and that it was arbitrary
whether he or Ambrosetti would be prosecuted.
However, there was testimony that Derrico was the
aggressor and struck Ambrosetti’s vehicle twice while
in traffic. A person of ordinary intelligence would
appreciate the risk from intentionally using one’s
vehicle to strike another vehicle at highway speeds
around other motorists, and therefore would have fair
notice such conduct would violate the statute. See
Horowitz v. State, 243 Ga. 441 (254 SE2d 828) (1979)
(finding the statue was sufficiently definite to give fair
notice that speeding in a residential neighborhood
constituted reckless conduct). Accordingly, we affirm
the trial court’s decision that OCGA § 16-5-60 (b) is
not unconstitutionally vague when applied to the facts
of this case.
3. Derrico next argues that the trial court erred
by failing to admit the entirety of Ambrosetti’s driving
history into evidence. Derrico contends the omitted
portions were relevant to show that Ambrosetti would
have had cause to lie about the incident because he
had several prior interactions with law enforcement
concerning traffic offenses. Questions of relevance are
within the sound discretion of the trial court, and
absent a clear abuse of discretion, a court’s decision to
exclude evidence on the grounds of a lack of relevance

a7
will not be disturbed on appeal. See Anglin v. State,
302 Ga. 333 (2) (806 SE2d 573) (2017).
The trial court admitted Ambrosetti’s driving
history pursuant to OCGA § 24-8-803 (8); however, the
court found certain portions of the document
irrelevant, limited Derrico’s cross-examination of
Ambrosetti, and did not send the document out with
the jury. Even if the trial court abused its discretion
when it limited Derrico’s cross- examination of
Ambrosetti, Derrico was still able to cross-examine
Ambrosetti about two other accidents Ambrosetti
admitted he caused since 2008. Further, an
independent witness testified that Derrico was the
aggressor during the incident. Accordingly, any error
would be harmless. See Adkins v. State, 301 Ga. 153,
158 (3) (a) (800 SE2d 341) (2017) (stating that “[a]
nonconstitutional error is harmless if it is highly
probable that the error did not contribute to the
verdict”).
Judgment affirmed. All the Justices concur.

a8
APPENDIX B
IN THE STATE COURT FOR FORSYTH
COUNTY, STATE OF GEORGIA

STATE OF GEORGIA, )
)
v.
)
)Case No.: 14M-4321-B
MARK JOSEPH
)
DERRICO,
)
Defendant.
)
ORDER DENYING DEFENDANT’S MOTION
FOR JUDGMENT NOTWITHSTANDING THE
VERDICT OR NEW TRIAL
The above-styled action came before the Court
on January 19, 2016 for hearing of the Defendant’s
Motion for Judgment Notwithstanding the Verdict or
New Trial.1 The Defendant was represented by trial
counsel. The Court heard the arguments of counsel,
and after consideration of the arguments, a review of
the record, and a review of the applicable law, this
Court HEREBY DENIES the Defendant’s Motions on
all grounds.
In particular, the Court finds the following:
1An Additional hearing was scheduled on the
Defendant’s motion on February 16, 2017, whereupon the Court
ordered the transcript of the January 2016 hearing, which was
filed on February 22, 2017.

a9
The State presented evidence sufficient to
prove the Defendant’s guilty [sic] beyond a
reasonable doubt.
The evidence was not sufficiently close to
warrant a retrial in the discretion of the Court.
Counts 1 and 2 were not unconstitutionally
vague as applied to the Defendant. “A statute is
unconstitutionally vague if it fails to give a person of
ordinary intelligence notice of the conduct which is
prohibited and encourages arbitrary and
discriminatory enforcement.” Johnson v. State, 264
Ga. 590, 591 (1994). Count 1 charges the Defendant
with a violation of O.C.G.A. 40-6-397, making it
unlawful to operate any motor vehicle with the
intent to annoy, harass, molest, intimidate, injure, or
obstruct another person, including violating O.C.G.A.
40-6-48, requiring drivers to drive entirely within a
singled marked lane for traffic, with said intent. The
accusation upon which the Defendant was found
guilty, alleged that the Defendant violated the
statute by moving into the lane of Felix Ambrosetti
and striking the vehicle Ambrosetti was driving. A
person of ordinary intelligence would be on notice
that the conduct for which the Defendant is charged
was prohibited by the statute, given that the statute
specifies the very conduct the Defendant engaged in
– leaving one’s lane of travel with the intent to
intimidate a person.
Count 2 charges the Defendant with violation
of OCGA 16-5-60(b), Reckless Conduct, by
endangering the bodily safety of Ambrosetti by
consciously disregarding the risk that his act of
striking Ambrosetti’s vehicle with his vehicle would

a10
endanger the safety of Ambrosetti. The statute
makes it unlawful to cause bodily harm or endanger
the bodily safely of another person by consciously
disregarding a substantial and unjustifiable risk that
his act will cause harm or endanger the safety of the
other person and the disregard constitutes a gross
deviation from the standard of care which a
reasonable person would exercise in the situation.
Again, the Court does not find that the statute was
so vague that a person of ordinary intelligence would
not be on notice that the conduct charged was
prohibited by statute.
The Court did not err in ruling that the
complete driving history of the witness Ambrosetti
would not be admitted, based [sic] the grounds
previously stated in the record, starting at page 159
of the trial transcript.
SO ORDERED this 30th day of April, 2018.
T. Russell McClelland III
T. Russell McClelland III, Chief Judge
State Court of Forsyth County
Bell-Forsyth Judicial District
Original:
Copy to:

Clerk of State Court
Jenna Thomas, ASG
Drew Mosley, Attorney for Defendant

a11
APPENDIX C
IN THE STATE COURT OF FORSYTH COUNTY
STATE OF GEORGIA
STATE OF GEORGIA
vs.
MARK JOSEPH
DERRICO,
DEFENDANT.

) CASE NO: 14M-4321-B
)
)
)
)
)
) MOTION TO DISMISS
)

HEARD BEFORE THE HONORABLE T. RUSSELL
MCCLELLAND, CHIEF JUDGE ON SEPTEMBER
11, 2015, AT 1:35 P.M. AT THE FORSYTH COUNTY
COURTHOUSE, CUMMING, GEORGIA
APPEARANCES:
JENNA N. THOMAS [MURPHY], ESQUIRE
ASSISTANT SOLICITOR GENERAL
BELL-FORSYTH JUDICIAL CIRCUIT
101 EAST COURTHOUSE SQUARE, SUITE
2084
CUMMING, GEORGIA 30040
FOR THE STATE

a12
ANDREW THELSTON MOSLEY, II,
ESQUIRE
MOSLEY LAW OFFICES
600 SOUTH PERRY STREET [OLD
ADDRESS]
LAWRENCEVILLE, GEORGIA 30046
FOR THE DEFENDANT
MARY E. SOKOLOWSKY, CCR
APPALACHIAN COURT REPORTING
POST OFFICE BOX 943
BLAIRSVILLE, GEORGIA 30514
(706) 745-4455
Page 2
21 MS. [SIC] MOSLEY: Thank, you, your Honor.
22 The defendant’s motion lies under the principle
that a
23 law may be unconstitutionally vague if it fails to
provide
24 the kind of notice that would allow ordinary
people to
25 conform their conduct to the law. …
Page 3
18 … And that’s under the 14th Amendment to the
19 United States Constitution….
22 And here we believe this is just such a case where
23 the – there’s not sufficient notice in the statute for

a13
24 people of ordinary intelligence to know what’s
prohibited and
25 that it’s susceptible to arbitrary and selective
enforcement.

a14
APPENDIX D
CONSTITUTIONAL AND STATUTORY
PROVISIONS
1.
U.S. Const. Amend. XIV, § 1-Due Process:
* * * nor shall any State deprive any person of life,
liberty, or property, without due process of law; * *
*

O.C.G.A. § 16-5-60(b), Reckless Conduct,
provides:
2.

(b) A person who causes bodily harm to or endangers
the bodily safety of another person by consciously
disregarding a substantial and unjustifiable risk that
his act or omission will cause harm or endanger the
safety of the other person and the disregard
constitutes a gross deviation from the standard of care
which a reasonable person would exercise in the
situation is guilty of a misdemeanor.
3. O.C.G.A. § 40-6-397, Aggressive Driving,
provides:
(a) A person commits the offense of aggressive driving
when he or she operates any motor vehicle with the
intent to annoy, harass, molest, intimidate, injure, or
obstruct another person, including without limitation
violating Code Section 40-6-42, 40-6-48, 40-6-49, 40-6123, 40-6-184, 40-6-312, or 40-6-390 with such intent.
(b) Any person convicted of aggressive driving shall be
guilty of a misdemeanor of a high and aggravated
nature.

